           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                       Date:    September 17, 2014
           Single Audit of the Metropolitan Washington
           Airports Authority, Washington, DC
           Report No. QC-2014-118


  From:    George E. Banks, IV                                                           Reply to
                                                                                         Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FAA, Eastern Region
           Regional Administrator, FTA, Region III


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Metropolitan Washington Airports Authority, Washington,
           DC (MWAA). This report presents the results of our Quality Control Review
           (QCR) on DOT’s major grant programs included in the single audit of MWAA for
           fiscal year ended December 31, 2013. The single audit was performed by both
           PriceWaterhouseCoopers (PWC) which audited the financial statements and by
           Bert Smith & Company (Bert Smith) which audited the federal expenditures.
           During this period, MWAA expended approximately $95 million from DOT grant
           programs. Bert Smith determined that DOT’s major programs were the Airport
           Improvement Program and the Federal Transit Cluster. We limited the scope of
           our QCR to the audit work performed by Bert Smith.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           Bert Smith rendered an unmodified opinion on MWAA’s compliance with DOT’s
           major program requirements for the Airport Improvement Program and the
           Federal Transit Cluster. 1



           1
            The single audit report issued by PWC and Bert Smith is available upon request to singleauditrequest@oig.dot.gov.
                                                                                 2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133, and
(2) the extent to which we could rely on the auditors’ work on DOT’s major
programs, the Airport Improvement Program and the Federal Transit Cluster.

RESULTS

We determined that Bert Smith’s audit work was Acceptable with Deficiencies,
and therefore, generally met the requirements of the Single Audit Act, OMB
Circular A-133, and DOT’s major programs. We found nothing to indicate that
Bert Smith’s opinion on DOT’s major programs was inappropriate or unreliable.

While the deficiencies we identified in the audit documentation need to be
corrected in future audits, we determined that the deficiencies did not alter the
overall results of the audit report. The deficiencies are related to:

Reporting (Airport Improvement Program): Bert Smith did not perform
adequate compliance testing to meet the audit objective in the compliance
supplement. MWAA did not submit its FAA Form 5100-126, Financial
Government Payment Report, and FAA Form 5100-127, Operating and Financial
Summary, to FAA in a timely manner. However, Bert Smith’s audit
documentation did not include any information related to the status of these two
reports. Furthermore, Bert Smith’s compliance report was dated April 15, 2014,
but MWAA submitted the two reports to FAA on May 5, 2014; therefore, Bert
Smith did not compliance test MWAA’s two reports.

Special Tests and Provisions – Revenue Diversion (Airport Improvement
Program): Bert Smith did not perform adequate compliance testing to meet the
audit objective in the compliance supplement. During our QCR, Bert Smith told us
that they relied upon the revenue testing that PricewaterhouseCoopers (PWC)
performed as part of its financial statement audit work. However, PWC’s audit
procedures are not specifically designed to meet the revenue diversion audit
objective. Furthermore, Bert Smith’s lack of review of FAA Form 5100-126 and
FAA Form 5100-127 also caused the revenue diversion audit objective not to be
met.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FTA, TSO-30
    Audit Liaison, FAA, AWP-100
                                                                      3


Audit Liaison, FAA Eastern Region ADO, AEA-620
Audit Liaison, OST, M-1
Chief Financial Officer, Metropolitan Washington Airports Authority
Partner, Bert Smith & Company
